VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS




                                                                         Inspection of 

                                                                       VA Regional Office 

                                                                    Albuquerque, New Mexico 





                                                                                     August 28, 2013
                                                                                      13-00993-274
             ACRONYMS AND ABBREVIATIONS 



C&C          Confirmed and Continued
OIG          Office of Inspector General
RVSR         Rating Veterans Service Representative
SAO          Systematic Analysis of Operations
TBI          Traumatic Brain Injury
VARO         Veterans Affairs Regional Office
VBA          Veterans Benefits Administration
VSC          Veterans Service Center




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                           Telephone: 1-800-488-8244 

                          Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline) 

                  Report Highlights: Inspection of the VA
                  Regional Office, Albuquerque, NM

Why We Did This Review                            properly grant Gulf War veterans entitlement
                                                  to mental health treatment, but provided
The Veterans Benefits Administration              adequate outreach to homeless veterans. Due
(VBA) has 56 VA Regional Offices                  to a lack of performance measures, we could
(VAROs) and 1 Veterans Service Center in          not fully assess the effectiveness of the
Cheyenne, Wyoming, that process disability        VARO’s homeless veterans outreach efforts.
claims and provide a range of services to
veterans. We evaluated the Albuquerque            What We Recommend
VARO to see how well it accomplishes this
mission.                                          We recommend the VARO Director develop
                                                  and implement a plan to review all temporary
What We Found                                     100 percent disability evaluations remaining
                                                  from our inspection universe and take
Overall, VARO staff did not accurately            appropriate action.     The Director should
process 23 (40 percent) of 58 disability          provide refresher training on processing
claims reviewed. We sampled claims we             traumatic brain injury claims and monitor its
considered at higher risk of processing           effectiveness.   The Director should also
errors, thus these results do not represent the   develop and implement a plan to ensure staff
overall accuracy of disability claims             return insufficient medical reports to
processing at this VARO.                Claims    examiners to obtain the evidence needed to
processing that lacks consistent compliance       support traumatic brain injury claims.
with VBA procedures can result in paying
inaccurate and unnecessary financial              Agency Comments
benefits.
                                                  The     Director    concurred    with    our
Specifically, 13 of 30 temporary 100 percent      recommendations, although VARO staff did
disability evaluations we reviewed were           not agree with 5 of the 23 claims processing
inaccurate, generally because VARO staff          errors identified.     Thus, management’s
did not establish controls to request future      planned actions are responsive and we will
medical reexaminations. Further, VARO             follow up as required.
staff    incorrectly    processed   10    of
28 traumatic brain injury claims. These
errors occurred primarily because staff
misinterpreted VBA policy for rating a
traumatic brain injury with a coexisting
mental condition and used insufficient VA
medical examination reports to evaluate
traumatic brain injury claims.                             LINDA A. HALLIDAY
                                                        Assistant Inspector General
Three of the 11 SAOs were either untimely or            for Audits and Evaluations
not completed due to a lack of management
oversight.    VARO staff did not always

                                                                                            i
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    I. 	 Disability Claims Processing ...............................................................................................2
 

           Finding 1              Albuquerque VARO Could Improve Disability Claims Processing 

                                  Accuracy ......................................................................................................2
 

                                  Recommendations........................................................................................7
 

    II. 	Management Controls ..........................................................................................................9


           Finding 2              VARO Lacked Oversight To Ensure Timely SAOs ....................................9


    III. Eligibility Determinations..................................................................................................10


    IV. Public Contact ....................................................................................................................11


Appendix A                        VARO Profile and Scope of Inspection .....................................................12
 

Appendix B                        Inspection Summary ..................................................................................14


Appendix C                        VARO Director’s Comments.....................................................................15


Appendix D                        Office of Inspector General Contact and Staff Acknowledgments ...........17


Appendix E                        Report Distribution ....................................................................................18





                                                                                                                                                 ii
                                                             Inspection of VARO Albuquerque, NM



                    INTRODUCTION
Objective           The Benefits Inspection Program is part of the Office of Inspector General’s
                    (OIG) efforts to ensure our Nation’s veterans receive timely and accurate
                    benefits and services. The Benefits Inspection Divisions contribute to
                    improved management of benefits processing activities and veterans’
                    services by conducting onsite inspections at VA Regional Offices (VAROs).
                    These independent inspections provide recurring oversight focused on
                    disability compensation claims processing and performance of Veterans
                    Service Center (VSC) operations. The objectives of the inspections are to:

                    	 Evaluate how well VAROs are accomplishing their mission of providing
                       veterans with access to high-quality benefits and services.
                    	 Determine whether management controls ensure compliance with VA
                       regulations and policies; assist management in achieving program goals;
                       and minimize the risk of fraud, waste, and other abuses.
                    	 Identify and report systemic trends in VARO operations.

                    In addition to this oversight, inspections may examine issues or allegations
                    referred by VA employees, members of Congress, or other stakeholders.

Scope of            In March 2013, we inspected the Albuquerque VARO. The inspection
Inspection          focused on the following four protocol areas: disability claims processing,
                    management controls, eligibility determinations, and public contact. Within
                    these areas, we examined two high risk claims processing areas: temporary
                    100 percent disability evaluations and traumatic brain injury (TBI) claims.
                    We also examined three operational activities: Systematic Analyses of
                    Operations (SAOs), Gulf War veterans’ entitlement to mental health
                    treatment, and the homeless veterans outreach program.

                    We reviewed 30 (14 percent) of 220 rating decisions where VARO staff
                    granted temporary 100 percent disability evaluations for at least 18 months.
                    This is generally the longest period a temporary 100 percent disability
                    evaluation may be assigned without review, according to Veterans Benefits
                    Administration (VBA) policy. We also examined 28 (85 percent) of
                    33 disability claims related to TBI that VARO staff completed from October
                    through December 2012.

Other               	 Appendix A includes details on the VARO and the scope of our
Information            inspection.
                    	 Appendix B outlines criteria we used to evaluate each operational
                       activity and a summary of our inspection results.
                    	 Appendix C provides the VARO Director’s comments on a draft of this
                       report.


VA Office of Inspector General                                                                1
                                                                       Inspection of VARO Albuquerque, NM



                    RESULTS AND RECOMMENDATIONS
                    I. Disability Claims Processing

Claims              The OIG Benefits Inspection team focused on accuracy in processing
Processing          temporary 100 percent disability evaluations and TBI claims. We evaluated
Accuracy
                    these claims processing issues and their impact on veterans’ benefits.

Finding 1 	         Albuquerque VARO Could Improve Disability Claims Processing
                    Accuracy

                    The Albuquerque VARO did not consistently process temporary 100 percent
                    disability evaluations and TBI cases accurately.             Overall, VARO
                    staff incorrectly processed 23 of the total 58 disability claims we sampled.
                    Claims processing that lacks consistent compliance with VBA procedures
                    can result in paying inaccurate and unnecessary financial benefits.
                    We identified 169 improper payments to 7 veterans totaling $134,918 from
                    April 2001 until February 2013.

                    We sampled claims related to specific conditions that we considered at
                    higher risk of processing errors. As a result, the errors identified do not
                    represent the universe of disability claims or the overall accuracy rate at this
                    VARO. As reported by VBA’s Systematic Technical Accuracy Review
                    (STAR) program as of February 2013, the overall accuracy of the VARO’s
                    compensation rating-related decisions was 81.2 percent—8.8 percentage
                    points below VBA’s target of 90 percent. The STAR program information
                    was not reviewed during the scope of this inspection.

                    The following table reflects the errors affecting, and those with the potential
                    to affect, veterans’ benefits processed at the Albuquerque VARO.

Table 1                          Albuquerque VARO Disability Claims Processing Accuracy
                                                 Number                Claims Inaccurately Processed
                                                    of
                           Type of Claim                       Affecting       Potential To         Total
                                                  Claims       Veterans’      Affect Veterans’
                                                 Reviewed       Benefits          Benefits          Errors

                      Temporary 100 Percent
                                                    30             6                  7                13
                      Disability Evaluations
                      Traumatic Brain Injury
                                                    28             1                  9                10
                      Claims
                      Total                         58             7                 16                23
                      Source: VA OIG analysis of VBA’s temporary 100 percent disability evaluations paid
                      at least 18 months or longer and TBI disability claims completed in the first quarter
                      FY 2013


VA Office of Inspector General                                                                                2
                                                              Inspection of VARO Albuquerque, NM


Temporary           VARO staff incorrectly processed 13 of 30 temporary 100 percent disability
100 Percent         evaluations we reviewed. VBA policy requires a temporary 100 percent
Disability
Evaluations
                    disability evaluation for a service-connected disability following a veteran’s
                    surgery or when specific treatment is needed. At the end of a mandated
                    period of convalescence or treatment, VARO staff must request a follow-up
                    medical examination to help determine whether to continue the veteran’s
                    100 percent disability evaluation.

                    For temporary 100 percent disability evaluations, including confirmed and
                    continued (C&C) evaluations where rating decisions do not change veterans’
                    payment amounts, VSC staff must input suspense diaries in VBA’s
                    electronic system. A suspense diary is a processing command that
                    establishes a date when VSC staff must schedule a medical reexamination.
                    As a suspense diary matures, the electronic system generates a reminder
                    notification for VSC staff to schedule the medical reexamination.

                    Three of the 13 processing errors involved C&C rating decisions where VSC
                    staff did not input suspense diaries as required. The reasons for the
                    remaining 10 errors varied; we did not identify a common trend or pattern
                    related to errors in processing these temporary 100 percent disability
                    evaluations.

                    In response to a recommendation in our national report, Audit of 100 Percent
                    Disability Evaluations (Report No. 09-03359-71, dated January 24, 2011),
                    VBA updated the electronic system to automatically establish a diary for a
                    C&C rating decision when a future medical reexamination is required. VBA
                    confirmed the update was successful in June 2011. After the update, we did
                    not identify any errors involving C&C rating decisions. As such, we made
                    no recommendation for improvement in this area.

                    Without effective management of temporary 100 percent disability ratings,
                    VBA is at increased risk of paying inaccurate financial benefits. Available
                    medical evidence showed 6 of the 13 processing errors we identified affected
                    veterans’ benefits. The errors resulted in 168 improper monthly payments to
                    6 veterans totaling $134,598 from April 2001 until February 2013. Details
                    on the most significant overpayment and underpayment follow.

                    	 A Rating Veterans Service Representative (RVSR) correctly continued a
                       100 percent evaluation for a veteran’s prostate cancer and annotated the
                       need for a future medical reexamination. VSC staff established a
                       suspense diary; however, they did not schedule the reexamination. VA
                       treatment records showed the veteran had completed medical treatment
                       with no evidence of recurrent disease, warranting a reduction in benefits
                       as of March 1, 2010. As a result, VA overpaid the veteran $91,692 over
                       a period of 2 years and 11 months.



VA Office of Inspector General                                                                  3
                                                              Inspection of VARO Albuquerque, NM


                    	 An RVSR established a veteran’s entitlement to a special monthly
                       compensation for loss of use of a creative organ due to prostate cancer, as
                       required. However, the effective date of January 29, 2013, was incorrect
                       because the date used to calculate benefits was not the date of
                       entitlement.     The actual date of entitlement to benefits was
                       February 11, 2008. As a result, VA underpaid the veteran $5,663 over a
                       period of 4 years and 11 months.

                    The remaining 7 of the 13 errors had the potential to affect veterans’
                    benefits. For various reasons, VARO staff did not schedule medical
                    reexaminations as required for some of the errors we identified. In seven
                    cases we found scheduling delays from approximately 1 year and 1 month to
                    10 years and 3 months.

                    Summaries of the total 13 errors we identified follow.

                    	 Three errors occurred when staff did not establish suspense diaries in the
                       electronic system, thereby removing the possibility that staff would
                       receive reminder notifications to schedule medical reexaminations.
                       These three errors involved C&C rating decisions; however, they
                       occurred prior to VBA’s June 2011 update to the electronic record to
                       automatically generate suspense diaries.
                    	 Three errors occurred when RVSRs assigned improper effective dates for
                       veterans’ disabilities, resulting in incorrect benefits payments.
                    	 Two errors occurred when staff proposed to reduce veterans’ benefits
                       payments but did not establish controls to manage the proposed
                       reductions. The delay for one claim was 235 days while the other was
                       1,763 days from the time staff should have taken final action to reduce
                       benefits until February 2013.
                    	 Two errors occurred when staff established controls to reduce veterans’
                       benefits payments but did not take final actions to reduce benefits. The
                       delays for one claim was 120 days, while the delay in processing the
                       other was 221 days from the time staff should have taken final action to
                       reduce benefits until February 2013.
                    	 Two errors occurred when staff established suspense diaries, but did not
                       request medical reexaminations when alerted to do so.
                    	 One error occurred when an RVSR over-evaluated a veteran’s disability
                       although medical evidence showed improvement, which required a
                       reduction in benefits.

Follow Up to        In our previous report, Inspection of the VA Regional Office, Albuquerque,
Prior VA OIG        NM (Report No. 10-00935-156, dated May 20, 2010), we stated errors in
Inspection
                    processing temporary 100 percent evaluations generally occurred because
                    VARO staff did not input suspense diaries for future medical reexaminations


VA Office of Inspector General                                                                  4
                                                              Inspection of VARO Albuquerque, NM


                    in the electronic system. The Director of the Albuquerque VARO concurred
                    with our recommendation to strengthen controls to ensure staff correctly
                    establish due dates and monitor future medical reexaminations for temporary
                    100 percent evaluations. Effective January 2010, VARO management
                    established new procedures to ensure Veterans Service Representatives
                    properly input suspense diaries when processing claims decisions requiring
                    future medical reexaminations.          Also, Senior Veterans Service
                    Representatives were required to track claims with suspense diaries and
                    additional reviews were conducted. The OIG closed this recommendation on
                    September 28, 2010. All three processing errors we identified in the current
                    inspection involved C&C rating decisions and occurred after management
                    implemented the new procedures.

                    The Director of the Albuquerque VARO also concurred with our
                    recommendation to review all temporary 100 percent disability evaluations
                    under his jurisdiction to determine whether reevaluations were required and
                    take appropriate actions. The OIG closed this recommendation on
                    September 28, 2010, after VARO managers indicated they had completed
                    reviews of the temporary 100 percent evaluations that we did not include in
                    our inspection.

Actions Taken       In response to a recommendation in our national report, Audit of 100 Percent
in Response to      Disability Evaluations (Report No. 09-03359-71, dated January 24, 2011),
Prior Audit         the then-Acting Under Secretary for Benefits agreed to review all temporary
Report
                    100 percent disability evaluations and ensure each evaluation had a future
                    examination date entered in the electronic record. Our report stated, “If
                    VBA does not take timely corrective action, they will overpay veterans a
                    projected $1.1 billion over the next 5 years.” The then-Acting Under
                    Secretary for Benefits stated in response to our audit report that the target
                    completion date for the national review would be September 30, 2011.

                    However, VBA did not provide each VARO with a list of temporary
                    100 percent disability evaluations for review until September 2011. VBA
                    subsequently extended the national review deadline to December 31, 2011,
                    then to June 30, 2012, and then again to December 31, 2012. Based on the
                    numerous delays and our continued findings, we are concerned about the
                    lack of urgency in completing this review, which is critical to minimize the
                    financial risk of making inaccurate benefits payments.

                    During our March 2013 inspection, we followed up on VBA’s national
                    review of its temporary 100 percent disability evaluation processing. We
                    examined 40 temporary 100 percent disability evaluations on VBA’s lists of
                    cases for review. We determined VARO staff accurately took actions, such
                    as inputting suspense diaries or scheduling reexaminations, on all 40 cases
                    we reviewed. However, in comparing VBA’s national review list with our
                    data on temporary 100 percent disability evaluations, we found three cases


VA Office of Inspector General                                                                 5
                                                              Inspection of VARO Albuquerque, NM


                    that VBA had not identified. We will continue monitoring this situation as
                    VBA works to complete its national review.

TBI Claims          The Department of Defense and VBA commonly define a TBI as a
                    traumatically induced structural injury or a physiological disruption of brain
                    function caused by an external force. The major residual disabilities of TBI
                    fall into three main categories—physical, cognitive, and behavioral. VBA
                    policy requires staff to evaluate these residual disabilities.

                    In response to a recommendation in our annual report, Systemic Issues
                    Reported During Inspections at VA Regional Offices (Report No.
                    11-00510-167, dated May 18, 2011), VBA agreed to develop and implement
                    a strategy for ensuring the accuracy of TBI claims decisions. In May 2011,
                    VBA provided guidance to VARO Directors to implement a policy requiring
                    a second signature on each TBI case an RVSR evaluates until the RVSR
                    demonstrates 90 percent accuracy in TBI claims processing. The policy
                    indicates second-signature reviewers come from the same pool of staff as
                    those used to conduct local station quality reviews.

                    VARO staff incorrectly processed 10 of 28 TBI claims—1 affected a
                    veteran’s benefits and resulted in an overpayment of $320, representing
                    1 improper monthly payment. This overpayment occurred when an RVSR
                    correctly granted the veteran entitlement to a special monthly compensation
                    based on evaluations of multiple disabilities. However, the effective date of
                    October 15, 2011, was incorrect because the date used to calculate benefits
                    was not the date of entitlement. The actual date of entitlement to benefits
                    was November 15, 2011.

                    The remaining 9 of the total 10 errors had the potential to affect veterans’
                    benefits. In all of these cases, RVSRs prematurely evaluated TBI residuals
                    using insufficient VA medical examination reports. Eight cases involved
                    medical reports where the examiners did not indicate whether the veterans’
                    symptoms were associated with a TBI or a coexisting mental condition, as
                    required. Neither VARO staff nor we can ascertain all of the residual
                    disabilities of a TBI without adequate or complete medical evidence.

                    Generally, errors associated with TBI claims processing occurred because
                    VSC staff misinterpreted VBA policy on rating a TBI with a coexisting
                    mental condition. Some VSC staff felt they had the authority to separately
                    evaluate TBI and coexisting mental disorders, even when VA medical
                    reports did not state which symptoms were due to which condition.
                    However, VBA policy requires that RVSRs evaluate these conditions based
                    on a medical examiner’s determination of the cause of the symptoms. As a
                    result, veterans may not have always received correct benefits.




VA Office of Inspector General                                                                  6
                                                              Inspection of VARO Albuquerque, NM


Follow Up to        In our previous report, Inspection of the VA Regional Office, Albuquerque,
Prior VA OIG        NM (Report No. 10-00935-156, dated May 20, 2010), we indicated errors in
Inspection          processing TBI claims occurred due to ineffective oversight of the quality
                    assurance process. Generally, TBI errors involved insufficient examination
                    reports. The Director of the Albuquerque VARO concurred with our
                    recommendation to develop and implement a mechanism to improve
                    oversight of the quality assurance process to ensure staff follow the correct
                    procedures for processing TBI claims. The OIG closed this recommendation
                    on September 28, 2010, after staff completed TBI training and management
                    began requiring a second signature by an experienced RVSR on every TBI
                    rating. We cannot access the effectiveness of the VARO’s second-signature
                    requirement for all TBI ratings because management discontinued the local
                    requirement as a result of the national second-signature policy.

                    The VARO held TBI training in July 2010, June 2011, and May 2012.
                    However, we continued to identify errors in processing TBI claims based on
                    insufficient examinations because some VSC staff misinterpreted VBA
                    policy for rating a TBI with a coexisting mental condition. We concluded
                    the corrective actions taken in response to our 2010 VARO inspection were
                    not adequate.

                    Recommendations

                    1.	 We recommend the Albuquerque VA Regional Office Director conduct a
                        review of the 190 temporary 100 percent disability evaluations remaining
                        from our inspection universe and take appropriate action.
                    2.	 We recommend the Albuquerque VA Regional Office Director conduct
                        refresher training on processing traumatic brain injury claims and
                        implement a plan to monitor the effectiveness of this training.
                    3.	 We recommend the Albuquerque VA Regional Office Director develop
                        and implement a plan to ensure staff return insufficient medical
                        examination reports to obtain the evidence required to support traumatic
                        brain injury evaluations.

Management          The VARO Director concurred with our recommendations and indicated a
Comments            review of the 190 temporary 100 percent disability evaluations remaining
                    from our inspection universe will be completed by December 31, 2013. In
                    addition, staff will generate awards on all rating decisions that have future
                    medical examination dates to protect against any omission of future diary
                    codes.

                    VARO staff completed TBI training in April 2013 and the Director stated
                    additional TBI training will be included in the FY 2014 training plan. The
                    Director indicated staff are in place to review examinations and return any
                    identified as insufficient. Additionally, meetings are held between VARO


VA Office of Inspector General                                                                 7
                                                               Inspection of VARO Albuquerque, NM


                    and VA Medical Center staff to identify training needs and prevent issues
                    that cause insufficient TBI examinations.

                    The VARO staff did not agree with two of the errors associated with
                    temporary 100 percent disability evaluations and three errors associated with
                    TBI claims processing. The Director stated “no benefit entitlement error was
                    identified”. A benefit entitlement error is a classification for a specific type
                    of error identified by VBA’s STAR staff. While STAR utilizes several
                    levels of classifications to identify errors that affect their national
                    performance, we do not differentiate among degrees of errors. We identify
                    errors based on whether or not VARO staff follow requirements or policy
                    established by VBA for claims processing.




VA Office of Inspector General                                                                    8
                                                            Inspection of VARO Albuquerque, NM


                    II. Management Controls

Systematic          We assessed whether VARO management had adequate controls in place to
Analysis of         ensure complete and timely submission of SAOs. We also considered
Operations
                    whether VSC staff used adequate data to support the analyses and
                    recommendations identified within each SAO. An SAO is a formal analysis
                    of an organizational element or operational function. SAOs provide an
                    organized means of reviewing VSC operations to identify existing or
                    potential problems and propose corrective actions. VARO management
                    must publish annual SAO schedules designating the staff required to
                    complete the SAOs by specific dates. The VSC Manager is responsible for
                    ongoing analysis of VSC operations, including completing 11 SAOs
                    annually.

Finding 2           VARO Lacked Oversight To Ensure Timely SAOs

                    Three of the 11 SAOs were either untimely or not completed. Two untimely
                    SAOs were due to inadequate oversight prior to the current VSC Manager’s
                    arrival. The VSC Manager deliberately did not complete a third SAO
                    because he had been at the VARO for only 2 months at the time it was due,
                    and the VSC was preparing to implement changes to its claims processing
                    methods. The 10 completed SAOs included thorough analyses using
                    appropriate data, identified deficient areas, and made recommendations for
                    improvement of VSC operations. Staff indicated the current VSC Manager
                    has made SAOs a priority, and SAOs completed after his arrival in June
                    2012 were timely. Therefore, we concluded the SAO issues found were
                    resolved, and we made no recommendation for improvement in this area.

Follow Up to        In our previous report, Inspection of the VA Regional Office, Albuquerque,
Prior VA OIG        NM (Report No. 10-00935-156, dated May 20, 2010), we indicated the
Inspection
                    majority of SAOs reviewed were incomplete and untimely, resulting from a
                    lack of adequate management oversight. The Director of the Albuquerque
                    VARO concurred with our recommendation to develop and implement a plan
                    to ensure timely and accurate completion of SAOs. The OIG closed this
                    recommendation on September 28, 2010, after the VARO noted it conducted
                    a review and stated the Director’s Management Analyst was providing SAO
                    deadline notifications. The VARO stated all FY 2010 VSC Division SAOs
                    were completed. During our current inspection, we found improvement in
                    the SAOs, as all completed SAOs addressed all required elements.




VA Office of Inspector General                                                              9
                                                              Inspection of VARO Albuquerque, NM


                    III. Eligibility Determinations

Entitlement to      Gulf War veterans are eligible for medical treatment for any mental disorder
Medical             they develop within 2 years of the date of separation from military service.
Treatment for
Mental
                    According to prior VBA policy, whenever an RVSR denied a Gulf War
Disorders           veteran service connection for any mental disorder, the RVSR also had to
                    consider whether the veteran was entitled to receive mental health treatment.

                    In December 2012, VBA modified this policy to state that RVSRs no longer
                    have to address Gulf War veterans’ entitlement to mental health care in all
                    cases. RVSRs only have to address this entitlement when a veteran’s mental
                    health benefit can be granted based on diagnosis of a mental disorder that
                    developed within 2 years of separation from military service.

                    VARO staff did not properly grant entitlement to mental health treatment in
                    two of the four claims we reviewed. Details on the two processing errors
                    follow.

                       An RVSR did not grant entitlement to treatment for a mental disorder on
                        a current disability decision. A previous review of the claim also did not
                        address this entitlement.
                       An RVSR denied service connection for a mental disorder on a current
                        disability decision and did not grant entitlement to medical treatment as
                        required.

                    RVSRs we interviewed were able to explain the correct process for
                    addressing Gulf War veterans’ entitlement to mental health treatment.
                    Because there were only two errors and they were unique, we did not
                    consider these errors to be a systemic issue. As a result, we made no
                    recommendation for improvement in this area.




VA Office of Inspector General                                                                 10
                                                             Inspection of VARO Albuquerque, NM


                    IV. Public Contact

Outreach to         In November 2009, VA developed a 5-year plan to end homelessness among
Homeless            veterans by assisting every eligible homeless veteran willing to accept
Veterans            services. VBA generally defines “homeless” as lacking a fixed, regular, and
                    adequate nighttime residence.

                    Congress mandated that at least one full-time employee oversee and
                    coordinate homeless veterans programs at each of the 20 VAROs that VA
                    determined to have the largest veteran populations. VBA guidance in
                    September 2002 directed that coordinators at the remaining VAROs be
                    familiar with requirements for improving the effectiveness of VARO
                    outreach to homeless veterans. These requirements include developing and
                    updating a directory of local homeless shelters and service providers.
                    Additionally, the coordinators should attend regular meetings with local
                    homeless service providers, local governments, and advocacy groups to
                    provide information on VA benefits and services.

                    The Albuquerque VARO had a part-time Homeless Veterans Outreach
                    Coordinator who was familiar with the requirements for improving the
                    effectiveness of VARO outreach to homeless veterans. We interviewed a
                    local homeless shelter representative, members of the New Mexico VA
                    Health Care System Homeless Veterans Program, and Veterans Service
                    Organization officials. These interviews confirmed VSC staff maintained
                    liaison with homeless outreach facilities and provided information on VA
                    benefits and services. Our inspection further confirmed that VARO staff
                    participated in regular outreach events, during which they explained VA
                    benefits.    Because we determined the Homeless Veterans Outreach
                    Coordinator provided outreach services to homeless veterans as required, we
                    made no recommendation for improvement in this area. However, without
                    established performance measures we could not fully assess the effectiveness
                    of the VARO’s homeless veterans outreach efforts. VBA needs a
                    measurement to assess the effectiveness of this program.




VA Office of Inspector General                                                               11
                                                             Inspection of VARO Albuquerque, NM


Appendix A          VARO Profile and Scope of Inspection

Organization        The Albuquerque VARO administers a variety of services and benefits,
                    including compensation and pension benefits; vocational rehabilitation and
                    employment assistance; benefits counseling; and outreach to homeless,
                    elderly, Native American, minority, and women veterans.

Resources           As of December 2012, VBA reported the Albuquerque VARO reported a
                    staffing level of 96 full-time employees. Of this total, the VSC had
                    76 employees assigned.

Workload            As of February 2013, the VARO reported 4,952 pending compensation
                    claims.   The average time to complete claims was 254.7 days—
                    approximately 5 days more than the national target of 250.

Scope               VBA has 56 VAROs and 1 VSC in Cheyenne, Wyoming, that process
                    disability claims and provide a range of services to veterans. We evaluated
                    the Albuquerque VARO to see how well it accomplishes this mission.

                    We reviewed selected management, claims processing, and administrative
                    activities to evaluate compliance with VBA policies regarding benefits
                    delivery and nonmedical services provided to veterans and other
                    beneficiaries. We interviewed managers and employees and reviewed
                    veterans’ claims folders. Prior to conducting our onsite inspection, we
                    coordinated with VA OIG criminal investigators to provide a briefing
                    designed to alert VARO staff to the indicators of fraudulent claims
                    processing.

                    Our review included 30 (14 percent) of 220 temporary 100 percent disability
                    evaluations selected from VBA’s Corporate Database. These claims
                    represented all instances in which VARO staff had granted temporary
                    100 percent disability evaluations for at least 18 months as of
                    January 5, 2013. We provided VARO management with 190 claims
                    remaining from our universe of 220 for its review. As follow-up to our
                    January 2011 audit, we sampled 40 temporary 100 percent disability
                    evaluations from the list VBA provided to the VARO as part of its national
                    review. We also reviewed all 28 available disability claims related to TBI
                    that the VARO completed from October through December 2012.

                    Where we identify potential procedural inaccuracies, we provide this
                    information to help the VARO understand the procedural improvements it
                    can make for enhanced stewardship of financial benefits. We do not provide
                    this information to require the VARO to adjust specific veterans’ benefits.
                    Processing any adjustments per this review is clearly a VBA program
                    management decision.



VA Office of Inspector General                                                              12
                                                               Inspection of VARO Albuquerque, NM


                    We assessed the 11 mandatory SAOs the VARO was responsible for
                    completing. We examined the four completed claims processed for Gulf
                    War veterans from October through December 2012 to determine whether
                    VSC staff had addressed entitlement to mental health treatment in the rating
                    decision documents as required. Further, we assessed the effectiveness of
                    the VARO’s homeless veterans outreach program.

Data Reliability    We used computer-processed data from the Veterans Service Network’s
                    Operations Reports and Awards. To test for reliability, we reviewed the data
                    to determine whether any data were missing from key fields, included any
                    calculation errors, or were outside the time frame requested. We also
                    assessed whether the data contained obvious duplication of records,
                    alphabetic or numeric characters in incorrect fields, or illogical relationships
                    among data elements. Further, we compared veterans’ names, file numbers,
                    Social Security numbers, VARO numbers, dates of claim, and decision dates
                    as provided in the data received with information contained in the claims
                    folders we reviewed related to temporary 100 percent evaluations, TBI, and
                    Gulf War veterans’ entitlement to mental health treatment.

                    Our testing of the data disclosed that they were sufficiently reliable for our
                    inspection objectives. Our comparison of the data with information
                    contained in the veterans’ claims folders reviewed as part of our inspection
                    of the Albuquerque VARO did not disclose any problems with data
                    reliability.

                    While this report references VBA’s STAR review data, the overall accuracy
                    of the Albuquerque VARO’s compensation rating-related decisions was
                    81.2 percent—8.8 percentage points below VBA’s FY 2013 target of
                    90 percent. We did not review these data as part of this inspection.

Inspection          We conducted this inspection in accordance with the Council of the
Standards           Inspectors General on Integrity and Efficiency’s Quality Standards for
                    Inspection and Evaluation. We planned and performed the inspection to
                    obtain sufficient, appropriate evidence to provide a reasonable basis for our
                    findings and conclusions based on our inspection objectives. We believe that
                    the evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our inspection objectives.




VA Office of Inspector General                                                                   13
                                                                      Inspection of VARO Albuquerque, NM


Appendix B          Inspection Summary

                    Table 2 reflects the operational and administrative activities inspected,
                    applicable criteria, and whether or not we had reasonable assurance of
                    VARO compliance.

                       Table 2. Albuquerque VARO Inspection Summary
                                                                                               Reasonable
     Five                                                                                      Assurance
  Operational                                     Criteria                                         of
   Activities                                                                                  Compliance
   Inspected
                                                                                               Yes    No

                                       Disability Claims Processing
1. Temporary     Determine whether VARO staff properly reviewed temporary 100 percent
   100 Percent   disability evaluations. (38 CFR 3.103(b)) (38 CFR 3.105(e)) (38 CFR 3.327)
   Disability    (M21-1 MR Part IV, Subpart ii, Chapter 2, Section J) (M21-1MR Part III,              X
   Evaluations   Subpart iv, Chapter 3, Section C.17.e)

2. Traumatic     Determine whether VARO staff properly processed claims for disabilities
   Brain         related to in-service TBI. (FL 08-34 and 08-36) (Training Letter 09-01)              X
   Injury
   Claims
                                 Management and Administrative Controls
3. Systematic    Determine whether VARO staff properly performed formal analyses of
   Analysis of   their operations through completion of SAOs. (M21-4, Chapter 5)                X
   Operations
                                         Eligibility Determinations
4. Gulf War      Determine whether VARO staff properly processed Gulf War veterans’
   Veterans’     claims, considering entitlement to medical treatment for mental illness.
   Entitlement   (38 United States Code 1702) ( M21-1MR Part IX, Subpart ii, Chapter 2)(M21­
                 1MR Part III, Subpart v, Chapter 7) (FL 08-15) (38 CFR 3.384) (38 CFR 3.2)           X
   to Mental
   Health
   Treatment

                                              Public Contact
5. Homeless      Determine whether VARO staff provided effective outreach services.
   Veterans      (Public Law 107-05) (VBA Letter 20-02-34) (VBA Circular 27-91-4)
   Outreach      (FL 10-11) (M21-1, Part VII, Chapter 6) (M27-1, Part II, Chapter 2)            X
   Program
  Source: VA OIG
  CFR=Code of Federal Regulations, FL=Fast Letter, M=Manual, MR=Manual Rewrite




VA Office of Inspector General                                                                         14
                                                                    Inspection of VARO Albuquerque, NM


Appendix C             VARO Director’s Comments


                  Department of
                  Veterans Affairs
                                                                Memorandum
          Date:      July 21, 2013

          From:      Director, VA Regional Office Albuquerque, New Mexico


          Subj:      Inspection of the VA Regional Office, Albuquerque, New Mexico


            To:      Assistant Inspector General for Audits and Evaluations (52)


                  1. The Albuquerque VARO’s comments are attached on the OIG Draft Report:
                     Inspection of the VA Regional Office, Albuquerque, New Mexico.

                  2. 	 Please refer questions to Emmett O’Meara, Veterans Service Center Manager,
                       at (505) 346-4775.


                      (original signed by:)

                      Chris Norton
                      Director


                     Attachment




VA Office of Inspector General                                                                      15
                                                              Inspection of VARO Albuquerque, NM


The Albuquerque VARO’s comments are attached on the OIG Draft Report: Inspection of the
VA Regional Office, Albuquerque, New Mexico.

    A.	   Temporary 100 percent disability evaluations. The Albuquerque Regional Office
          concurs with the overall findings regarding vulnerabilities discovered in the
          processing of temporary 100 percent evaluations. However, we do not agree with two
          of the thirteen errors called as no benefit entitlement error was demonstrated upon
          further review.

    B.	   The Albuquerque Regional Office will complete a review of the remaining 190
          temporary 100 percent disability evaluations identified by OIG and appropriate action
          will be completed. The review will commence on or before October 1, 2013 with an
          expected completion date of December 31, 2013. Files located at the Records
          Management Center that have a service connected cancer diagnostic code evaluated at
          100 percent disabling will be electronically reviewed to determine permanent and total
          status.

          Additionally, RO staff will generate awards on all rating actions that have a future
          examination to protect against any omission of the future diary code. Additional
          training will be provided to VSRs in the first quarter of fiscal year 2014 on future
          examinations and associated end products; and recognizing ancillary benefits.

    C.	   Traumatic Brain Injury (TBI) Claims Processing. The Albuquerque Regional Office
          concurs with the overall findings regarding vulnerabilities discovered in the
          processing of TBI claims. However, we do not agree with three of the ten errors called
          as no benefit entitlement error was identified upon further review.

          Consistent with the TBI training requirement for personnel deciding these claims and
          those conducting quality assurance reviews, training was conducted and completed in
          April 2013. Additional TBI training will be included in the fiscal year 2014 training
          plan based on official guidance (Training Letter 09-11, Compensation Service Bulletin
          dated October 2011) regarding examination results. Effectiveness of the training will
          be monitored based on local and national quality reviews, as well as in-process
          reviews (IPRs).

    D.	   Insufficient examinations. The Albuquerque Regional Office concurs with the
          recommendation regarding development and implementation of a plan to ensure that
          staff return insufficient medical examination reports to obtain the required evidence to
          support traumatic brain injury evaluations.

Personnel are in place to review examinations and return any identified as insufficient within the
required time limits. An on-site physician is also utilized to provide clarification of
examinations which may not meet the insufficient criteria. Meetings are also held between RO
and VAMC personnel to identify training needs and prevent issues that cause insufficient TBI
examinations.



VA Office of Inspector General                                                                 16
                                                     Inspection of VARO Albuquerque, NM


Appendix D          Office of Inspector      General       Contact       and     Staff
                    Acknowledgments

                      OIG Contact 	      For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.
                      Acknowledgments	   Brent Arronte, Director
                                         Ed Akitomo
                                         Daphne Brantley
                                         Brett Byrd
                                         Scott Harris
                                         Jeff Myers
                                         David Piña
                                         Nelvy Viguera Butler
                                         Diane Wilson




VA Office of Inspector General                                                       17
                                                              Inspection of VARO Albuquerque, NM


Appendix E          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Benefits Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Veterans Benefits Administration Western Area Director
                    VA Regional Office Albuquerque Director

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    U.S. Senate: Martin Heinrich, Tom Udall
                    U.S. House of Representatives: Ben Lujan; Michelle Lujan Grisham;
                       Steve Pearce




                    This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                               18
